IN THE
SUPREME COURT OF THE UNITED STATES
Petitioner for Rehearing
Case No 19-1095
Petitioners/ Relators James Beggs and his Wife Joyce Beggs et ux
Vs.
Respondents Beverly Story et al
PROOF OF SERVICE
The, stitioners James Beggs
and his wife Joyce
Beggsi
do swear aneraeclare that on this date June 24, 2020,
2020 a^Required by the Supreme Court under Rule 29 Petitioners as include
a filling fee of $200.00 sending Petitioners Petition for Rehearing to all
Parties to the above proceeding or that party’s counsel of Record, and on
every other person required to be served under 28 U. S. C. 2403 (a) and the
Solicitor General of the United States Room 5616 Department of Justice 950
Pennsylvania Ave., N. W. Washington, D C 20530-0001. As Said Acts of
Congress and Presidential Executive Orders and Proclamation and Federal
Programs Voided and Placed in Questions. With Copies to be filed by the
Clerk of the Forth Circuit Court under USSC Rule 11 for their Discretion for
Respondent Cunningham Lindsey U. S. LLC, f/k/a Cunningham Lindsey of
Virginia Beach to be add to said Writ of Certiorari or Decide said case. With
Proof of Service By an Affidavit with 3 Book of Petitioners Petition
Rehearing, given to all Respondent an a ENVLOPE CONTAINING these
DOCUMENTS IN THE UNITED STATE SUPREME COURT by delivery of a
third-party commercial Carrier for delivery within 3 days. With The facts
contained in said Petitioners Petition for Rehearing are true and accurate to
the best of the Petitioners’ knowledge and belief, with the Right word of less
than 3,000.00
pages 1-14.
We James Begg^/~C)wVf-fo an^ J°yce BeggsLj^^j^^ idare under
penalty of perjffly that the "foregoing is true and^orrect'send to the following:
Beverly Story a Former Associate City Attorney
from The Law Office of Eric O. Moody”,
Chesapeake Office
2200 Dunbarton Drive Suit B
Chesapeake, Virginia 23325

Respondent
Paulette D. Franklin Jenkins
Tort Claim Unit Norfolk
9620 Maryland Ave.
Bldg A-50 Suite 205
Norfolk Va. 23511

l

“Notes: This Attorney has been allegedly
Disbarred, but will serve her address
hsting her as a Non- Interest Party,
sending it to her Address as required by
Supreme Court Rules”.

Respondent
Attorney Cynthia A. King
Past Guardian Litems For Lauryn
P. O. Box 8483 Virginia Beach,
Virginia 23450

Awaiting U. S. Supreme Court Rules 11
from case.

Respondent
for Respondent Cunningham Lindsey U. S. LLC,
f/k/a Cunningham Linsey of Virginia Beach
Chad E. Kurtz, Esq.
Cozen O OCONNOR, P. C.
1200 19th Street NW, Suite 300
Washington DC 20036
Attorney Lori A. Butts
The Law Office of Eric O. Moody
On Behalf of Respondent
Beverly Story
Eric O Moody & Associates
355 Crawford Street, Suite 810
Portsmouth, Va. 23704

For Respondent Beverly Story

Attorney Nicole A. Belote
Of Kozak, Davis, Renninger & Belote P.C.
Guardian Litems For Lauryn
355 Crawford Street Suite 700
Portsmouth, Virginia 23704
Respondent
Attorney Asha Pandya
125 St. Paul BLVD. Suite 110
Norfolk, Virginia 23510

Replaced Guardian Litems for
“Said Child” for Respondent
Cynthia King

“Notes: This Attorney has asked me not to
serve her. I have list her as a Non- Interest
Party, sending it to her Address as
required by Supreme Court Rules”.

Attorney Afshin Farashahi
One Columbus Center Sutie 604
Virginia Beach,Va 23462

Respondent awaiting Discretion to
said complex cases of this Court.

Attorney General William Barr
Department of Justice
950 Pennsylvania Ave., N. W.
Washington, D C 20530-0001
Solicitor General of the United States
Room 5616
Department of Justice
950 Pennsylvania Ave.,
N. W. Washington, D C 20530-0001

9-

Richard Ottinger
American Banker Insurance
Company of Florida “Assurant” DBA
Vandeventer Black LLP
101 W. Main Street
5000 World Center
Norfolk, Va. 23501
Richard A Saunder, Esquire
Attorney for GEICO Insurance Agency, Inc.
6160 Kempsville Circle, Suite 341B
Norfolk, Virginia 2350
FEMA Office of Equal Rights,
500 C. Street S W, Room 617A
Washington, DC 20472
U.S. Department of Justice,
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
FEMA-Offi.ee of Equal Rights
ATTN: CIVIL RIGHTS TITLE VI PROGRAM
300 D St, SW, 8th floor
Washington, D.C. 20472-350
Four Circuit Court of Appeal Clerk Office
Lewis F. Powell Jr. Courthouse & Annex
1100 East Main Street, Suite 501
Richmond Va. 23219

Subscribed and sworn to before me this 7JA day of
20 2D

fypOm&lZDZq

IS;S reg, f.SI

*%Sjpy-.....
° -4/

3

IN THE
SUPREME COURT OF THE UNITED STATES
Veteran Certification
June 24, 2022
I James R. Beggs certify that I am a veteran of the United States Army for
over 20 years (2) If executed within the United States, its territories, possessions, or
commonwealths: "I declare (or certify, verify, or state) under penalty of perjury that the
foregoing is true and correct. Executed on (date).

mes R. Beggs
I James R. Beggs certify that my son Cornelius Bobbitt-Beggs is a Veteran of
the United States Army under President Obama. (2) If executed within the United
States, its territories, possessions, or commonwealths: "I declare (or certify, verify, or
state) under penalty of perjury that the foregoing is true and correct. Executed on (date)
as Both Petitioners having Power of Attorney over “Said Veteran”.

POA for “Said Veteran”

James Beggs

POA for Said Veteran

Joyce Beggs

Witnessed by Petitioner L^ /kty

Joyce Beggs June 24, 2020

Subscribed and sworn to before me this Z.M day of JuHl
20 Id

REG#

--Sit

!<io 786a823 o-:°i
% 4^-.
'"//iiiiiiimtt'"'

••

IN THE
SUPREME COURT OF THE UNITED STATES
Signature of Petitioners
Joyce Beggs
June 24, 2020
(2) If executed within the United States, its territories, possessions, or commonwealths:
"I declare (or certify, verify, or state) under penalty of perjury that the foregoing is true
and correct presented in good faith and not for delay.
Executed on (June 24, 2020).

Subscribed and sworn to before me this 2-M day of
2020.

L

'"'nimnm""'

